WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United Stat e

FEB 21 2020

l OFFICE OF THE CLERK

No. 19-918
v.

Anthony J. Lucero
(Petitioner)

James R. Koncilja, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar the upreme Court of th

E

I am not presently a m
response will be flu

the Bar of this Cou
arm-ber.

nse be requested, the

Signature
Date: February 21, 2020
(Type or print) Name Glendon L. Laird
gMr.

❑ Ms.

❑ Mrs.

❑ Miss

Firm McElroy, Deutsch, Mulvaney & Carpenter, LLP
Address 5600 S. Quebec Street, Suite C100
City & State Greenwood Village, CO

Zip 80111

Phone (303) 293-8800
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF PRO
SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF
THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc : Mr. Anthony J. Lucero, Pro Se
2226 Harvey Place
Pueblo, CO 81006

RECEIVED
FEB 2 5 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

